HHS/OIG-Audit--"Operation Restore Trust Skilled Nursing Facility Review Conducted at National Health Corporation, St. Petersburg, Florida, (A-04-96-01130)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Skilled Nursing Facility Review Conducted at National Health Corporation, St. Petersburg,
Florida," (A-04-96-01130)
December 13, 1996
Complete
Text of Report is available in PDF format (1.10 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of the review was to evaluate the medical necessity of the care and services provided and the reasonableness
of the charges and reimbursements made during the period from January 1, 1994 through December 31, 1994.
The Operation Restore Trust reviewers questioned $32,239 in charges reported for the 7 sample beneficiaries in our study.
This amount is comprised of $29,310 related to physical, occupational and speech therapy services rendered; $100 of unallowable
respiratory therapy services; $1,690 for unnecessary ambulance service charges for one beneficiary; and $1,139 for inappropriate
enteral nutrients provided for one beneficiary. Therefore, we are recommending an adjustment of the above charges. In addition,
we request that a focused review of physical therapy be conducted by the Fiscal Intermediary and State agency in order
to recoup overpayments made to this skilled nursing facility and to implement corrective action by the facility.